> -

u

No:

In The
Alfred Domenick Wright - PETITIONER
United States of America - RESPONDENT

PROOF OF SERVICE
I, Alfred Domenick Wright, do swear or declare that on this date April 17,2020, as required by
Supreme Court Rule 29,1 have and petition for a Writ of Certiorari on each party to the above
proceeding or that party’s counsel and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to
each of them and with first class postage prepaid, or by delivery to a third party commercial
carrier for delivery within three calendar days.

The name and address of served:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 17. 2020
(Date)

V
lot

(signed)

VII.

Conclusion
The Petitioner has now filed a Writ ofCertiorari in a timely manner and claims that there

are sincere and valid grounds for an Appeal in this case. May GOD lead the Court to a fair and
compassionate judgement. The Petitioner thanks the Honored Court for their valuable time spent in
reviewing and deciding in this matter.

Respectfully submitted,

Date: 11/28/2019* (Revised from 10/21/2019)
** location/address updated December, 2019

Alfred Domenick Wright FBOP ID #15710171
** USP Hazelton
US Penitentiary
P.O. Box 2000
Bruceton Mills, WV 26525
E-Mail:(c/o mother)
vdkwright@att.net

I, Alfred Domenick Wright, swear under the penalties of peijury, that all events stated in this document
are the truth and that I am willing to take a polygraph examination to prove this.

Date: 11/28/2019

Respectfully submitted,
Alfred Domenick Wright

